                                    SOCIAL SECURITY

MEMORANDUM
Date:   September 5, 2003                                               Refer To:

To:     The Commissioner

From:   Inspector General

Subject: Assessment of the Supplemental Security Income Fugitive Felon Project
        (A-01-03-23070)


        The attached final report presents the results of our audit. Our objectives were to
        quantify the actual savings achieved and determine the final outcome for Supplemental
        Security Income recipients identified as fugitive felons.

        Please comment within 60 days from the date of this memorandum on corrective action
        taken or planned on our recommendations. If you wish to discuss the final report,
        please call me or have your staff contact Steven L. Schaeffer, Assistant Inspector
        General for Audit, at (410) 965-9700.




                                                      James G. Huse, Jr.


        Attachment
           OFFICE OF
    THE INSPECTOR GENERAL


SOCIAL SECURITY ADMINISTRATION


      ASSESSMENT OF THE
    SUPPLEMENTAL SECURITY
       INCOME FUGITIVE
        FELON PROJECT


   September 2003   A-01-03-23070



AUDIT REPORT
                                    Mission
We improve SSA programs and operations and protect them against fraud, waste,
and abuse by conducting independent and objective audits, evaluations, and
investigations. We provide timely, useful, and reliable information and advice to
Administration officials, the Congress, and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
By conducting independent and objective audits, investigations, and evaluations,
we are agents of positive change striving for continuous improvement in the
Social Security Administration's programs, operations, and management and in
our own office.
                                                Executive Summary
OBJECTIVE

Our objectives were to quantify the actual savings achieved and determine the final
outcome for Supplemental Security Income (SSI) recipients identified as fugitive felons.

BACKGROUND

Section 1611(e)(4) of the Social Security Act prohibits SSI payments to individuals for
any month during which they are considered fugitive felons or parole/probation violators.
This change to the Social Security Act—prohibiting SSI payments to fugitives—took
effect in August 1996.

Although the fugitive provisions took effect in August 1996, the Social Security
Administration (SSA) usually limits its overpayment assessments to fugitives to the
24 months before the date the Agency discovered the warrant under its rules of
administrative finality (unless fraud or similar fault is involved).

SSA processes most SSI cases through its Modernized Supplemental Security Income
Claims System—including the reinstatement of payments after fugitive warrants are
satisfied.

RESULTS OF REVIEW

We estimate the SSI payments issued to about 51,258 fugitives between August 1996
and February 2003—plus the SSI payments that were withheld while the warrants were
outstanding—totaled $448.4 million. Based on our review of 300 sample cases, we
estimate that SSA

      Saved the SSI program $83.4 million between August 1996 and February 2003.
       This included $74.1 million in SSI payments that might otherwise have been paid
       had SSA not taken administrative action to suspend the monthly payments to
       fugitives and $9.3 million in SSI overpayments recovered from fugitives.

      Has the potential to save an additional $206.9 million through recovery of fugitive
       overpayments for months up to and including February 2003. This includes
       $98.3 million in SSI overpayments that were in active recovery plans, and
       $108.6 million in SSI overpayments for which SSA had not made recovery
       decisions.

      Did not save/recover $158.1 million in SSI payments issued to fugitives, despite
       their outstanding warrants. This included $20.3 million for which SSA granted
       repayment waivers or deemed uncollectible; and $125.9 million in SSI payments
       issued to recipients for months during which they were fugitives, but SSA did not


Assessment of the SSI Fugitive Project (A-01-03-23070)                                       i
       pursue recovery because the Agency applied its administrative finality rules.
       Finally, it included $11.9 million—identified based on our audit—which SSA did
       not detect but will not attempt to recover because of its administrative finality
       rules.

Additionally, we estimate that SSA saved $19.5 million by withholding the continuing
monthly SSI payments from fugitives who were subsequently apprehended and
incarcerated.

CONCLUSIONS AND RECOMMENDATIONS

SSA realized savings to the SSI program by (1) suspending SSI payments to fugitives
and (2) recovering a portion of overpayments resulting from fugitive ineligibility.
However, additional savings could be realized through earlier detection of outstanding
warrants and more diligent efforts to recover payments incorrectly issued to fugitives.

To improve SSA’s debt recovery performance and assist the Agency in meeting its
strategic objective to increase the percent of outstanding debt that is in a collection
arrangement, we make several recommendations that are discussed in detail in this
report.

AGENCY COMMENTS
SSA agreed with our recommendations.




Assessment of the SSI Fugitive Project (A-01-03-23070)                                     ii
                                                                      Table of Contents
                                                                                                                Page


INTRODUCTION.....................................................................................................1

RESULTS OF REVIEW ..........................................................................................6

Savings Achieved....................................................................................................7

             Cases with SSI Ineligibility Resulting from Outstanding Warrants...........8
             SSI Payments to Fugitives Not Subject to Recovery Efforts ...................9
             SSI Payments to Fugitives Subject to Recovery Efforts........................11
             Unresolved Overpayments to Fugitives ................................................12
             Funds Saved Through Continued Suspension of SSI Payments ..........13

Final Outcome of Fugitive Cases ..........................................................................14

Offenses Committed by the Fugitives....................................................................15

CONCLUSIONS AND RECOMMENDATIONS.....................................................17

OTHER MATTERS ...............................................................................................18

APPENDICES

APPENDIX A – Fugitive Data Received from Law Enforcement

APPENDIX B – Flowchart of Fugitive Process

APPENDIX C – Administrative Finality

APPENDIX D – Sampling Methodology and Results

APPENDIX E – Reasons Why Sample Cases Did Not Result in Fugitive Ineligibility

APPENDIX F – Reasons Why SSA Did Not Identify Some Fugitive Overpayments

APPENDIX G – Agency Comments

APPENDIX H – OIG Contacts and Staff Acknowledgments




Assessment of the SSI Fugitive Project (A-01-03-23070)
                                                                Acronyms
CFR               Code of Federal Regulations

FFAP              Fugitive Felon Automated Process

FO                Field Office

IVT               Interactive Video Training

MSSICS            Modernized Supplemental Security Income Claims System

NCIC              National Crime Information Center

OASDI             Old-Age, Survivors and Disability Insurance

OIG               Office of the Inspector General

SSA               Social Security Administration

SSI               Supplemental Security Income

SSR               Supplemental Security Record

U.S.C.            United States Code




Assessment of the SSI Fugitive Project (A-01-03-23070)
                                                                             Introduction
OBJECTIVE
Our objectives were to quantify the actual savings achieved and determine the final
outcome for Supplemental Security Income (SSI) recipients identified as fugitive felons.1

BACKGROUND

SSI is a nationwide Federal cash assistance program administered by the Social
Security Administration (SSA) that provides a minimum level of income to financially
needy individuals who are aged, blind or disabled.2

Effective August 1996, an individual is ineligible for SSI payments for any month during
which he/she is

         fleeing to avoid prosecution for a crime which is a felony (or in New Jersey, a
          high misdemeanor) under the laws of the place from which the person flees;

         fleeing to avoid custody or confinement after conviction for a crime which is a
          felony (or in New Jersey, a high misdemeanor) under the laws of the place from
          which the person flees; or

         violating a condition of probation or parole imposed under Federal or State law.3

SSA revised its application and redetermination forms on October 23, 2000 to ensure
that all potential SSI recipients are advised of the effect that fugitive status or
parole/probation violations have on eligibility for payments. These new forms solicit
specific information from individuals to determine whether fugitive ineligibility applies.

To identify SSI recipients who did not report their outstanding warrants to SSA, the
Agency—in partnership with the Office of the Inspector General (OIG)—entered into
agreements with the United States Marshals Service, the National Crime Information
Center, and several State and local law enforcement agencies to obtain fugitive data.
(See Appendix A for details on the fugitive data SSA receives from law enforcement.)



1
  Throughout this report, we use the term “fugitives” to include parole/probation violators as well as
fugitive felons.
2
 Title XVI of the Social Security Act; §§ 1601, et seq. of the Social Security Act, (42 U.S.C. §§ 1381, et
seq.); 20 CFR § 416.110.
3
    § 1611(e)(4) of the Social Security Act (42 U.S.C. § 1382(e)(4)).



Assessment of the SSI Fugitive Project (A-01-03-23070)                                                       1
THE SSI FUGITIVE PROCESS

SSA processes the names, dates of birth, and Social Security numbers provided by law
enforcement through its Enumeration Verification System. Fugitive records with verified
Social Security numbers are then compared to the Supplemental Security Record
(SSR)—SSA’s master file of SSI information—to screen for SSI eligibility that could be
affected by the warrants.

Next, the warrants are confirmed with law enforcement.4 For those warrants that
remain outstanding, the Agency is authorized to provide address information to law
enforcement.5 Under current procedures, law enforcement is afforded 60 days to
apprehend the fugitives. After 60 days, OIG refers the cases to the servicing SSA field
offices (FO) to take the appropriate administrative actions (for example, suspending SSI
payments and assessing overpayments as necessary).6 See Appendix B for a flowchart
of the fugitive process.

In April 2003, SSA implemented the Fugitive Felon Automated Process. This program
was designed to automate the suspension and overpayment notice actions for most SSI
fugitive cases.

ADMINISTRATIVE FINALITY

Once SSA makes determinations regarding SSI eligibility or payment amounts, those
determinations may be reopened and revised under certain conditions. The
discretionary rules that SSA uses to reopen and revise determinations are known as the
rules of administrative finality.

SSA’s administrative finality rules—when applied—generally limit the Agency to
reopening and revising SSI eligibility determinations made within the last 24 months
based on new evidence (for example, an outstanding warrant). Therefore, when SSA
discovers warrants issued more than 24 months in the past, retroactive SSI ineligibility
is normally limited to 2 years. SSA does not consider SSI payments issued for any
earlier months while the warrants were outstanding to be overpayments, and recovery is
not pursued.7 (See Appendix C for more information on SSA’s administrative finality
rules.)




4
 Law enforcement agencies may contact SSA directly. In these situations, SSA may suspend SSI
payments based on the information provided by law enforcement without involving the OIG.
5
    § 1611(e)(5) of the Social Security Act (42 U.S.C. § 1382(e)(5)).
6
    SSA uses code N25 on the SSR to indicate fugitive ineligibility.
7
    These payments are not recorded on SSA’s financial statements as debts owed the Agency.



Assessment of the SSI Fugitive Project (A-01-03-23070)                                         2
ESTABLISHING AND RESOLVING OVERPAYMENTS TO FUGITIVES

Once SSA takes action to suspend SSI payments and calculate any resulting
overpayments, written notices must be sent to the overpaid individuals advising them of
their repayment obligations and appeal rights. In addition, SSA must take action to
resolve the overpayments.8 Overpayments to fugitives may be recovered, waived, or
deemed uncollectible.

                          The Social Security Act requires that SSA recover overpayments
Recovery of               when they are discovered.9 One of the Agency’s strategic objectives
Overpayments              is to improve debt management. To meet this objective, SSA plans
                          to increase the percent of outstanding debt that is in a collection
arrangement.10

SSA acknowledges that promptly resolving overpayments maximizes the amount of
debt recovered.11 Overpayments may be recovered through

         withholding a portion of current SSI payments to recipients whose eligibility was
          restored after their warrants were satisfied;12
         withholding a portion of Old-Age, Survivors and Disability Insurance (OASDI)
          benefits paid to the individuals;13
         refunds made to SSA;14 and
         administrative offset of other Federal payments, including tax refunds.15




8
    SSA’s Program Operations Manual System, section SI 02201.005.
9
    § 1631(b)(1)(A) of the Social Security Act (42 U.S.C. 1383(b)(1)(A)).
10
     Social Security Administration, Strategic Plan, 2003-2008, pp. 21-22.
11
     SSA’s Program Operations Manual System, section SI 02201.005.
12
     § 1631(b)(1)(A) of the Social Security Act (42 U.S.C. § 1383(b)(1)(A)).
13
  § 1147 of the Social Security Act (42 U.S.C. § 1320b-17) pursuant to § 1631(b)(6) of the Social
Security Act (42 U.S.C. § 1383(b)(6)). OASDI benefits are authorized under title II of the Social Security
Act, §§ 201 et seq. of the Social Security Act (42 U.S.C. §§ 401, et. seq.), and are administered by SSA.
14
     § 1631(b)(1)(A) of the Social Security Act (42 U.S.C. § 1383(b)(1)(A)).
15
     § 1631(b)(4) of the Social Security Act (42 U.S.C. § 1383(b)(4)).


Assessment of the SSI Fugitive Project (A-01-03-23070)                                                       3
                         SSA may relieve recipients from their obligations to repay SSI
Repayment                debts—including overpayments resulting from fugitive ineligibility—if
Waivers                  the individuals were not at fault in causing the overpayments and
                         recovery would

         defeat the purpose of the SSI program;
         be against equity and good conscience; or
         impede efficient or effective administration of the program because of the small
          amount involved.16

REESTABLISHING SSI ELIGIBILITY

SSI recipients whose payments were suspended because of outstanding warrants may
reestablish their eligibility once they satisfy their warrants. Recipients must provide SSA
with documentation that the warrants were satisfied and—provided all other SSI
eligibility factors are met—payments resume.17

In most cases, SSA uses its Modernized Supplemental Security Income Claims System
(MSSICS) to electronically process SSI claims—including the reinstatement of
payments after fugitive warrants are satisfied. Specifically, SSA staff enters the date
the warrant was satisfied into MSSICS for the system to resume SSI payments the
month after the warrant was resolved.

If law enforcement issues a warrant in error (for example, for the wrong person because
of identify theft), MSSICS needs to be updated with this information. Specifically,
MSSICS contains the following question for SSA staff to answer—“Warrant rescinded or
withdrawn (Y/N).” When the question is answered “yes,” the system treats the warrant
as if it never existed, and fugitive ineligibility is removed from the SSR. Further, any
overpayments that were assessed based on the erroneous warrant are removed.

SCOPE AND METHODOLOGY

To accomplish our objective, we:

         Researched the Social Security Act and SSA’s regulations, policies and
          procedures related to fugitive felons and parole/probation violators.

         Obtained an extract from the OIG’s Allegation and Case Investigative System of
          fugitives identified through January 28, 2003.



16
     § 1631(b)(1)(B) of the Social Security Act (42 U.S.C. 1383(b)(1)(B)); 20 CFR § 416.550.
17
     SSA Policy Instruction EM-00010, section (E)(3)(e), February 17, 2000.


Assessment of the SSI Fugitive Project (A-01-03-23070)                                         4
        Submitted the names, Social Security numbers, and dates of birth of the fugitives
         contained in OIG’s Allegation and Case Investigative System to SSA’s
         Enumeration Verification System. For the 88,208 individuals resulting from this
         verification process, we obtained SSI data from the SSR and separated them into
         2 groups: (1) those whose records did not reflect fugitive ineligibility, despite
         their warrants (51,456 individuals) and (2) those whose records reflected SSI
         ineligibility because of their outstanding warrants (36,752 individuals).18

        Conducted a stratified random sample—150 records from each of the 2 groups
         described above—from our population of 88,208 individuals. See Appendix D for
         our sampling methodology and results.

        Worked with the OIG’s Office of Investigations and SSA’s Fugitive Felon
         Coordinators.

        Determined whether all SSI recipients—whose payments were suspended
         because they were fugitives—were recorded in OIG’s Allegation and Case
         Investigative System.

We conducted our audit between January and July 2003 in Boston, Massachusetts. We
tested the fugitive data obtained for our audit for accuracy and completeness and
determined it to be sufficiently reliable to accomplish our objectives. The entities
audited were the Office of Income Security Programs under the Deputy Commissioner
for Disability and Income Security Programs and SSA’s FOs under the Deputy
Commissioner for Operations. We conducted our audit in accordance with generally
accepted government auditing standards.




18
  The fugitive data were extracted from the Allegation and Case Investigative System as of
January 28, 2003. We obtained the SSR data (code N25) used to separate the 88,208 records into the
two groups in February 2003.


Assessment of the SSI Fugitive Project (A-01-03-23070)                                               5
                                                         Results of Review
SSA realized savings to the SSI program by (1) suspending SSI payments to fugitives
and (2) recovering a portion of overpayments resulting from fugitive ineligibility.
However, additional savings could be realized through earlier detection of outstanding
warrants and more diligent efforts to recover incorrect payments to fugitives.

We estimate the SSI payments issued to about 51,258 fugitives between August 1996
and February 2003—plus the SSI payments that were withheld while the warrants were
outstanding—totaled $448.4 million (as shown in the chart below).19



           Chart 1: Estimated SSI Fugitive Results
           Between August 1996 and February 2003

                                                                            Recovered or
              Not Saved                                                        Saved
             $158.1 million                                                 $83.4 million
               (35.3%)                                                        (18.6%)




                                                                        Recoverable
                                                                       $206.9 million
                                                                          (46.1%)




19
  We assessed SSA’s recovery efforts as of May 30, 2003 for overpayments that existed for the period
August 1996 to February 2003.



Assessment of the SSI Fugitive Project (A-01-03-23070)                                                 6
SAVINGS ACHIEVED
Of the 300 cases we sampled,

        192 (64 percent) had their SSI payments suspended due to outstanding
         warrants;20 and
        108 (36 percent) did not have their SSI payments suspended due to outstanding
         warrants. (See Appendix E for additional details on these 108 cases.)

Based on the results of our review of these 300 sample cases, we estimate that SSA

        Saved the SSI program $83.4 million between August 1996 and February 2003.
         This included $74.1 million in SSI payments that might otherwise have been paid
         had SSA not taken administrative action to suspend the monthly payments to
         fugitives and $9.3 million in SSI overpayments recovered from fugitives.21

        Has the potential to save an additional $206.9 million through recovery of fugitive
         overpayments for months up to and including February 2003. This includes
         $98.3 million in SSI overpayments that were in active recovery plans, and
         $108.6 million in SSI overpayments for which SSA had not made recovery
         decisions.22

        Did not save/recover $158.1 million in SSI payments issued to fugitives, despite
         their outstanding warrants. This included $20.3 million for which SSA granted
         repayment waivers or deemed uncollectible; and $125.9 million in SSI payments
         issued to recipients for months during which they were fugitives, but SSA did not
         pursue recovery because the Agency applied its administrative finality rules.
         Finally, it included $11.9 million—identified based on our audit—which SSA did
         not detect but will not attempt to recover because of its administrative finality
         rules.

In addition to the overpayments/savings that resulted from fugitive ineligibility, SSA
achieved savings to the SSI program by sharing address information with law
20
  Of these 192 fugitives, 180 were previously eligible for SSI payments because they were disabled.
Further, 106 of these 180 disabled individuals (59 percent) had mental disabilities, including mental
retardation and schizophrenic disorders.
21
   For example, in March 2002, SSA stopped SSI payments to a recipient and assessed an overpayment
totaling $13,137, which included all SSI payments previously issued while he was considered a fugitive.
Additionally, SSA saved $4,360 by not issuing the monthly SSI payments from April 2002 through
November 2002, while the individual’s warrant remained outstanding.
22
  Because these individuals previously qualified for SSI payments based on their limited income and
resources, they may not have the ability to repay their debt. Therefore, although a significant portion of
overpayments to fugitives are technically subject to recovery efforts, the actual recovery of these
overpayments may never be realized.



Assessment of the SSI Fugitive Project (A-01-03-23070)                                                       7
enforcement—which resulted in the arrest and imprisonment of some fugitives. We
estimate that SSA saved approximately $19.5 million by withholding the continuing
monthly SSI payments from these individuals from the time they were incarcerated
through February 2003.

CASES WITH SSI INELIGIBILITY RESULTING FROM OUTSTANDING WARRANTS

A total of 192 individuals in our sample were ineligible for SSI payments because of
their outstanding warrants.23 SSA took action to suspend SSI payments an average of
41 days after the OIG’s Office of Investigations sent the fugitive information to the
responsible FOs.24 These fugitives received a total of $1.4 million in SSI payments
while they were fugitives.25 Of this amount,

        $514,448 (36 percent) was not subject to recovery efforts by SSA because the
         Agency applied its administrative finality rules, and
        $898,165 (64 percent) was subject to recovery efforts by SSA.

Of the $1.4 million paid to fugitives, $121,030 (8.6 percent) was discovered as a result
of our audit. One reason for the undetected overpayments concerns the action SSA
took once fugitives satisfied their warrants. Law enforcement agencies use the terms
“rescinded” or “withdrawn” to indicate that warrants were satisfied. However, SSA staff
may interpret this to mean that the warrants were nullified as if they never existed when
in fact, the warrants were valid from the dates of issuance to the dates they were
satisfied.

For example, an SSI recipient in our sample had a warrant issued on
February 29, 2000. SSA took administrative action in November 2002 to suspend SSI
payments and assess overpayments for prior months incorrectly paid to the fugitive. On
November 25, 2002, the individual satisfied her warrant. As a result, SSA updated the
SSR using the MSSICS program by indicating the warrant was “rescinded/withdrawn.”
This action removed prior SSI ineligibility determinations and overpayment assessments
from the SSR. Because the overpayments were effectively deleted, SSA did not pursue
recovery of the funds.

However, our review of this case found that the individual’s warrant was active from
February 2000 to November 2002, and she was therefore ineligible for SSI payments.


23
  Eleven of these individuals appealed SSA’s determinations of fugitive ineligibility. In all 11 cases, the
appeal decisions were unfavorable for the fugitives.
24
  According to SSA instruction EM-02046 (dated April 22, 2002), “SSA field office personnel are to
handle these incoming receipts as a priority workload. Processing of this workload must occur within
30 days of receipt from OIG.”
25
   This includes all SSI payments issued between August 1996 (or the month in which the warrant was
issued, if later) and February 2003 (or the month in which the warrant was satisfied, if earlier).



Assessment of the SSI Fugitive Project (A-01-03-23070)                                                        8
As a result of our audit, SSA reevaluated this case and assessed overpayments totaling
$14,874 that might otherwise have gone undetected.

Based on the results of our sample cases, we estimate that SSA incorrectly removed
ineligibility determinations for approximately 2,205 fugitives when those individuals
satisfied their warrants. (See Appendix F for additional reasons why SSA did not
identify some fugitive cases.)

SSI PAYMENTS TO FUGITIVES NOT SUBJECT TO RECOVERY EFFORTS

Although 54 individuals in our sample received $514,448 in SSI payments for months
during which they had outstanding warrants, SSA may not recover these amounts due
to the Agency’s application of its administrative finality rules.

Administrative Finality’s Impact on the Identification and Recovery of SSI
Payments to Fugitives

In 42 cases, SSA discovered the warrants more than 24 months after they were issued.
Because SSA determined fraud or similar fault did not exist, the Agency limited its
retroactive reopening of eligibility determinations to the 24 months prior to the date the
Agency discovered the warrants. In total, $446,288 in SSI payments to these fugitives
was not recorded as overpayments and recovery was not pursued.

If SSA had discovered these 42 warrants within 24 months of their issuance,
administrative finality would not have been applied and all SSI payments issued while
the warrants were outstanding could have been assessed as overpayments and
recovery could have been pursued. For example, in June 2002, SSA took action on an
SSI recipient’s record based on a warrant that was issued for him on June 24, 1994.
Because SSA determined fraud or similar fault did not exist, the Agency limited the
overpayment period to 24 months—July 2000 to June 2002. Therefore, SSA only
assessed $13,450 in recoverable overpayments. In July 2002, the warrant was
satisfied and the individual began receiving SSI payments again.26 All other SSI
payments issued prior to July 2000—totaling $15,219—were not assessed as
overpayments and recovery was not pursued.27

Since SSA is still in the process of obtaining comprehensive fugitive data from law
enforcement, the Agency has determined it will continue to apply its administrative
finality rules and limit the amount of overpayments that are assessed to fugitives.28
However, the effects of administrative finality should diminish with time once SSA
regularly receives and processes fugitive data from most law enforcement agencies.

26
     SSA did not adjust this individual’s SSI payment to recover the overpayment until January 2003.
27
  This includes all SSI payments issued between December 1997 (the first month for which an SSI
payment was issued to this individual) and June 2000.
28
     SSA Policy Instruction EM-00010, section (E)(3)(f), February 17, 2000.


Assessment of the SSI Fugitive Project (A-01-03-23070)                                                 9
For instance, the first warrant file SSA receives from a particular law enforcement
agency may include warrants issued back to August 1996 (or earlier)—but SSA will
apply administrative finality rules and limit retroactive SSI ineligibility and overpayment
assessments to 24 months. Subsequent files received from this law enforcement
agency and processed by SSA would include recent warrant data—allowing SSA to
recognize fugitive ineligibility as of the dates the warrants were issued. As a result, SSA
will be able to assess overpayments for all months during which warrants were
outstanding.

Consistent Application of Administrative Finality Rules for Fugitives

In 9 cases, SSA did not timely recognize additional months as overpayments even
though such action would have been permissible under the Agency’s administrative
finality rules. However, as of the date of our audit, more than 24 months had elapsed
and the reopening of these prior determinations was precluded under SSA’s application
of its administrative finality rules. Consequently, SSA lost the opportunity to recover
$30,904 in SSI payments that were issued to these fugitives over an average period of
6 months.

For example, in one case, SSA confirmed that a warrant—issued on October 23, 1997
for an SSI recipient—remained outstanding as of July 1998. SSA suspended payments
in July 1998 but did not assess an overpayment for the period October 1997 to
June 1998. However, since we discovered this case in February 2003 as a result of our
audit, more than 24 months had elapsed and—because of SSA’s application of its
administrative finality rules—the Agency lost the opportunity to recover the $5,824 in
SSI payments issued between October 1997 and June 1998.

Consistent Application and Impact of Administrative Finality Rules for Fugitives

The remaining 3 cases had overpayments in both categories described above. SSA did
not recognize a total of $25,732 in SSI payments as overpayments because of its
administrative finality rules. In addition, $11,524 was not assessed as overpayments,
even though such action would have been permissible under SSA’s application of
administrative finality rules.

Administrative Finality Limits

We found that the Agency’s administrative finality rules were not consistently applied in
all cases. We confirmed with SSA staff that seven individuals in our sample—identified
during our audit—were assessed overpayments (totaling $53,700) that exceeded the
time periods allowed under the Agency’s administrative finality rules. Based on our
sample, we estimate that $13.2 million in SSI overpayments was charged to fugitives in
excess of administrative finality limits.




Assessment of the SSI Fugitive Project (A-01-03-23070)                                  10
If SSA does not detect cases in which overpayments have been assessed beyond the
time periods allowed under its administrative finality rules, these overpayments are
included on the Agency’s records as overpayments subject to recovery efforts.

Inconsistent application of administrative finality rules can result in inequity among SSI
recipients. Even if SSA has not determined that fraud or similar fault exists, some
recipients may be held responsible for repayment of SSI overpayments, while others
are not assessed overpayments for periods before the prior 24 months.

SSI PAYMENTS TO FUGITIVES SUBJECT TO RECOVERY EFFORTS

For our sample cases, we quantified the amount of overpayments charged to fugitives.
We found that SSA paid $898,165 in SSI payments to 171 fugitives in our sample
through February 2003 that were subject to recovery efforts.29 This included

        $866,396 in overpayments that were recorded on the SSR as of May 30, 2003,
         and
        $31,769 in overpayments for periods up to February 2003 that were discovered
         and posted to the SSR after May 30, 2003.30

Chart 2 shows the status of the $866,396 in recoverable overpayments that existed on
the SSR as of May 30, 2003.


                      Chart 2: Status of Fugitive Overpayments as of
                                May 2003 for Sample Cases

                                                                   Recovered
                         Unresolved                                   4%
                            43%

                                                                      Active
                         Written Off                                 Recovery
                             9%                                       Efforts
                                                                       44%




29
  Although 192 individuals in our sample were ineligible for SSI payments because of their fugitive
status, only 171 were overpaid SSI funds subject to recovery efforts. The remaining 21 individuals were
not overpaid—despite their outstanding warrants—for various reasons. For example, some individuals
had their SSI applications denied once SSA discovered the warrants, and others were already ineligible
for reasons unrelated to their outstanding warrants. As a result, SSA did not issue any payments
incorrectly.
30
  Of this amount, $7,101 in overpayments (22 percent) was detected and assessed as a result of our
audit. The remaining $24,667 (78 percent) in fugitive overpayments assessed after May 30, 2003 was
the result of routine processing of fugitive cases that were ongoing during our audit.


Assessment of the SSI Fugitive Project (A-01-03-23070)                                                11
SSA notified the fugitives of their overpayments and initiated recovery efforts an
average of 32 days after the Agency recorded the overpayments on the SSR. As of
May 30, 2003:

        SSA had successfully recovered $37,082 (4 percent) incorrectly paid to fugitives.
         This included $29,690 recovered by withholding a portion of current SSI
         payments and $4,222 recovered by withholding a portion of current OASDI
         benefits. An additional $3,170 was refunded to SSA.

        SSA was actively pursuing recovery of $376,859 (44 percent) incorrectly paid to
         fugitives. This included $267,129 scheduled for recovery from future SSI
         payments, $52,014 scheduled for recovery from future OASDI benefits, and
         $13,545 scheduled for recovery through repayment agreements with the
         overpaid fugitives.31 Finally, it included $44,171 in fugitive overpayments for
         which SSA was actively pursuing recovery as of May 30, 2003 by issuing billing
         notices to the individuals.

        SSA wrote off $76,455 (9 percent) incorrectly paid to fugitives. This included
         $36,329 that SSA deemed uncollectible and $40,126 in which SSA waived the
         fugitives’ repayment obligations.

        A total of $376,000 (43 percent) incorrectly paid to fugitives remained
         unresolved.

UNRESOLVED OVERPAYMENTS TO FUGITIVES

Overpayments totaling $376,000 remained unresolved as of May 30, 2003. This
included

        $283,183 for which recovery efforts have been unsuccessful because the
         individuals were unable or unwilling to repay their debts;
        $85,796 for which SSA had not made recovery decisions (or made inappropriate
         decisions); and
        $7,021 for which SSA’s decisions on waiver requests were pending.

Recovery Unsuccessful

In our sample, 50 individuals were unable or unwilling to repay $283,183 in
overpayments that resulted from fugitive ineligibility. This included



31
  At the established rates of recovery for our sample cases (an average of $34 per month), it will take
SSA an average of about 157 months (13 years) to fully recover the debts. The time periods required to
recover the debts ranged from 4 months to 75 years, with a median of 7 years.



Assessment of the SSI Fugitive Project (A-01-03-23070)                                                12
      21 individuals with overpayments totaling $120,423 whose records reflected
       “unable/unwilling to repay;”
      17 individuals with overpayments totaling $99,878 whose records reflected
       repayment agreements, but more than 90 days had elapsed since the
       agreements were recorded on the SSR and no payments were remitted to SSA
       as of May 30, 2003;
      10 individuals with overpayments totaling $61,622 who had not responded to
       SSA’s billing notices and contact attempts; and
      2 individuals with overpayments totaling $1,260 who were residing in nursing
       facilities and were unable to repay their overpayments.

No Recovery Decisions

For 23 individuals in our sample—with overpayments totaling $85,796—SSA had not
initiated recovery decisions as of May 30, 2003.

   •   5 individuals satisfied their warrants and regained eligibility for SSI payments as
       of May 30, 2003. SSA could pursue recovery of the $13,045 overpaid to these
       individuals by withholding a portion of their current SSI payments. On average,
       these overpayments were 3 months old.
   •   18 individuals were not eligible for SSI payments as of May 30, 2003. However,
       6 individuals—whose overpayments were an average of 13 months old—were
       receiving OASDI benefits from which SSA could pursue recovery of $12,516 in
       overpayments. For the remaining 12 individuals (whose overpayments were an
       average of 11 months old), SSA had not initiated collection activity as of
       May 30, 2003 to recover the $60,235 incorrectly paid to them.

Pending Requests for Waivers

Two fugitives in our sample requested that SSA waive their obligations to repay a total
of $7,021 incorrectly paid to them. As of May 30, 2003, the Agency had not made
decisions to approve or deny these waiver requests. One overpayment was 6 months
old and the other was 5 months old.

FUNDS SAVED THROUGH CONTINUED SUSPENSION OF SSI PAYMENTS

In addition to the SSI funds the Agency determined were incorrectly paid to fugitives,
SSI program savings were achieved by withholding the recurring monthly SSI payments
from fugitives while their warrants remained outstanding.

Through February 2003, we estimate that approximately $290,728 in SSI funds would
have been paid to 81 individuals in our sample if SSA had not suspended their SSI
payments based on their outstanding warrants. This is approximately $3,589 per
individual for an average period of 8 months.



Assessment of the SSI Fugitive Project (A-01-03-23070)                                   13
FINAL OUTCOME OF FUGITIVE CASES
Although SSA achieves program savings by suspending payments to fugitives, we
found that 61 of the 192 sample cases (with fugitive ineligibility) satisfied their warrants
and were receiving monthly SSI payments as of February 2003. Projecting our sample
results to the population, we estimate that 16,220 fugitives—whose SSI payments were
previously suspended—satisfied their warrants and were again receiving SSI payments
as of February 2003. Table 2 summarizes the SSI payment status of the 192 cases in
our sample for which SSI ineligibility occurred because of outstanding warrants.

                                                Table 2
                 Status as of February 2003                                Number of Individuals
     Ineligible due to Outstanding Warrants                                              86
     Currently Receiving SSI Payments                                                    61
                                     32
     Ineligible for Other Reasons                                                        30
     Ineligible due to Imprisonment                                                      15
         TOTAL                                                                         192

SSI Funds Subject to Recovery Efforts

The 61 individuals who were receiving monthly SSI payments as of February 2003 were
overpaid $339,917 because of prior fugitive ineligibility. As of May 30, 2003, SSA

        established recovery arrangements by withholding a portion of current SSI
         payments to recover $262,088 (77 percent);
        recovered $26,309 (8 percent);
        deemed $21,469 was uncollectible (6 percent); and
        had not made collection decisions for $10,626 (3 percent).

The remaining overpayments—$19,425 (6 percent)—were not detected and recorded
on the SSR until after May 30, 2003.

SSI Funds Not Subject To Recovery Efforts

In addition to the SSI payments that were subject to recovery efforts by SSA, 19 of the
61 individuals (who satisfied their warrants and were collecting SSI payments in
February 2003) received an additional $194,551 while they were fugitives that may not
be recovered. This included


32
 Other reasons include ineligibility due to excess income or resources, and findings that the individuals
were not disabled.



Assessment of the SSI Fugitive Project (A-01-03-23070)                                                  14
      16 cases in which SSA discovered the warrants more than 24 months after they
       were issued. Under its administrative finality rules, the Agency limited its
       retroactive reopening of eligibility determinations to the 24 months prior to the
       dates the Agency discovered the warrants. In total, $162,571 in SSI payments to
       these fugitives was not determined to be overpayments and recovery was not
       pursued.

      2 cases in which SSA did not timely recognize additional months as
       overpayments even though such action would have been permissible under the
       Agency’s application of its administrative finality rules. However, as of the date
       of our audit, more than 24 months had elapsed and the reopening of these prior
       determinations was precluded under the application of SSA’s administrative
       finality rules. Consequently, SSA lost the opportunity to attempt recovery of
       $6,764 in SSI payments issued to these fugitives.

      1 case in which both situations above occurred. In total, $17,086 in SSI
       payments to this fugitive was not determined to be an overpayment and recovery
       was not pursued. In addition, because SSA did not timely recognize additional
       months as overpayments, the Agency lost the opportunity to attempt recovery of
       $8,130 in SSI payments because of its application of administrative finality rules.

Projecting the results of our sample to the population, we estimate that approximately
5,047 fugitives—who regained eligibility for monthly SSI payments as of
February 2003—were not considered by SSA to have been overpaid a total of
$50 million issued to them while their warrants were outstanding. Although these
individuals were receiving SSI payments in February 2003 from which SSA could have
pursued recovery, SSA applied its administrative finality rules and did not consider the
$50 million to be incorrect payments subject to recovery efforts.

OFFENSES COMMITTED BY THE FUGITIVES
SSI recipients, found ineligible for payments because of their outstanding warrants,
were wanted for serious crimes—including burglary, robbery and assault. Additionally,
39 of the 63 recipients in our sample whose payments were suspended for parole or
probation violations were also wanted for serious crimes.

Table 3 summarizes the types of offenses for which the individuals in our sample (for
whom SSI payments were suspended) were wanted, and Table 4 summarizes the
crimes of the parole and probation violators. Combining the statistics in these two
tables shows that 130 of the 192 fugitives (68 percent) were wanted for serious crimes.




Assessment of the SSI Fugitive Project (A-01-03-23070)                                  15
                                                   Table 3
                     Offense For Sample Cases                                   Number of Individuals
Burglary, Larceny, Theft, Robbery, Drugs, Forgery, Fraud,                                      91
and Assault
Probation/Parole Violation                                                                     63
Obstructing Justice                                                                            20
Other Offenses                                                                                 10
Unknown Felonies                                                                                 5
Traffic Offenses33                                                                               3
           TOTAL                                                                             192

For the 63 individuals whose warrants were the result of parole/probation violations, we
attempted to determine the original offenses for which they were on parole or probation.
If we could not determine the original offense, we attempted to determine the offense for
which the individual was considered in violation of parole or probation. For example,
one SSI recipient was placed on probation based on an initial charge of assault;
whereas another recipient violated his probation by committing robbery (but we could
not determine the original offense for which the individual was placed on probation).

                                                    Table 4
             Offense Committed by Parole or                                Number of Parole or
                   Probation Violators                                     Probation Violators
 Burglary, Larceny, Theft, Robbery, Drugs,                                             39
 Forgery, Fraud, and Assault
 Unknown                                                                               13
 Traffic Offenses                                                                       9
 Obstructing Justice                                                                    1
 Public Peace                                                                           1
            TOTAL                                                                      63




33
     Traffic offenses can include charges of driving under the influence of drugs/alcohol, and/or hit-and-run.


Assessment of the SSI Fugitive Project (A-01-03-23070)                                                      16
                                                    Conclusions and
                                                   Recommendations
Overall, SSA has achieved savings by detecting, recovering and preventing SSI
payments to fugitives. However, to improve SSA’s debt recovery performance and
assist the Agency in meeting its strategic goal of increasing the percent of outstanding
debt that is in a collection arrangement, we recommend that SSA

   1. Encourage staff to resolve overpayments to fugitives when they are recorded on
      the SSR.

   2. Provide guidance, training and oversight of administrative finality decisions to
      ensure the rules are applied uniformly to all fugitives.

   3. Revise MSSICS to clarify the distinction between a satisfied warrant and a
      rescinded/withdrawn warrant.

   4. Re-evaluate fugitive cases that appear to have been improperly coded in
      MSSICS.

   5. Continue to work with State law enforcement agencies to obtain comprehensive
      fugitive data to process through SSA’s systems on a routine basis.

AGENCY COMMENTS
SSA agreed with our recommendations. Specifically, SSA will issue new POMS
instructions and provide additional training regarding fugitive processing. The Agency
agreed to re-evaluate cases that appeared to have been improperly coded in MSSICS.
Also, SSA will continue to follow-up with States that are not fully reporting warrant data
to the Agency. (See Appendix G for the Agency’s comments.)




Assessment of the SSI Fugitive Project (A-01-03-23070)                                     17
                                                                       Other Matters
OASDI BENEFITS TO FUGITIVES
Although section 1611(e)(4) of the Social Security Act (42 U.S.C. § 1382(e)(4)) prohibits
SSI payments to fugitives, there is currently no prohibition for OASDI benefits under
Title ll of the Social Security Act.34 As a result, individuals may receive OASDI benefits
even though they are fugitives wanted by law enforcement. In August 2000, we
recommended that SSA pursue legislation prohibiting payment of OASDI benefits to
fugitives.35

Twenty-nine fugitives in our sample were ineligible for SSI payments in February 2003
but remained eligible for OASDI benefits. In total, these 29 fugitives were paid
$14,557 in OASDI benefits for February 2003. Projecting our results to the population
of 88,208 fugitives, we estimate that approximately 7,988 individuals were ineligible for
SSI payments in February 2003, but were eligible for OASDI benefits totaling $4 million.
If the Social Security Act were amended to preclude payment of OASDI benefits to
fugitives, SSA could save approximately $48 million over the next year by withholding
the monthly OASDI benefits to these 7,988 fugitives.

Furthermore, in our August 2000 audit report, we noted that about 40 percent of the
fugitives in that review were concurrently receiving benefits under both the SSI and
OASDI programs. We also reported that although the OASDI program is an entitlement
program in which beneficiaries have paid into the Social Security trust funds, we believe
that SSA should not provide OASDI benefits to fugitive felons. These benefit payments
may finance a potentially dangerous fugitive’s flight from justice. Thus, under the
current statutory provisions, fugitives are prohibited from receiving one type of benefit
payment administered by SSA but can continue to receive a second type of benefit
payment. Further, both OASDI and SSI benefit payments are suspended for prisoners.
As a result, a prisoner cannot receive OASDI benefits, but a fugitive felon can.




34
   On April 2, 2003, the House of Representatives passed H.R. 743, the Social Security Protection Act
of 2003. Section 203 of this legislation would deny OASDI benefits to fugitives. However, the legislation
was still pending in the Senate as of September 2, 2003.
35
     Old-Age, Survivors and Disability Insurance Benefits Paid to Fugitives (A-01-00-10014), August 2000.


Assessment of the SSI Fugitive Project (A-01-03-23070)                                                  18
                                                         Appendices




Assessment of the SSI Fugitive Project (A-01-03-23070)
                                                                                Appendix A
Fugitive Data Received from Law Enforcement
As of November 2002, the Social Security Administration (SSA) received fugitive and
parole/probation violation data for 37 States. This included

       12 States that reported fugitive data directly to SSA based on agreements
        established with the Agency, and

       25 States (including the District of Columbia) that reported fugitive data to the
        National Crime Information Center (NCIC). Subsequently, SSA obtained this
        data through its agreement with the NCIC.1

For the remaining 14 States, SSA did not obtain complete fugitive data. The following
table illustrates the status of fugitive warrant reporting for each State (and the District of
Columbia) as of November 2002.

                           Fugitive Data            Fugitive Data           Fugitive Data Not
        State
                         Reported to NCIC          Reported to SSA          Reported to SSA
Alabama                                                                             9
Alaska                                                      9
Arizona                                                                               9
Arkansas                           9
California                                                  9
Colorado                           9
Connecticut                                                                           9
Delaware                                                    9
District of Columbia               9
Florida                            9
Georgia                            9
Hawaii                                                                                9
Idaho                              9
Illinois                                                    9
Indiana                                                                               9
Iowa                                                        9
Kansas                             9
Kentucky                           9
Louisiana                          9
Maine                              9
Maryland                                                                              9

1
 Additionally, SSA received data from 4 local law enforcement agencies (New York City, New York;
Baltimore, Maryland; Philadelphia, Pennsylvania and Montgomery County, Pennsylvania).



Assessment of the SSI Fugitive Project (A-01-03-23070)                                             A-1
                           Fugitive Data           Fugitive Data           Fugitive Data Not
        State
                         Reported to NCIC         Reported to SSA          Reported to SSA
Massachusetts                                            9
Michigan                                                                            9
Minnesota                                                                           9
Mississippi                        9
Missouri                           9
Montana                                                                             9
Nebraska                           9
Nevada                                                                              9
New Hampshire                      9
New Jersey                                                  9
New Mexico                         9
New York                                                    9
North Carolina                     9
North Dakota                       9
Ohio                                                        9
Oklahoma                           9
Oregon                                                                              9
Pennsylvania                                                9
Rhode Island                       9
South Carolina                                                                      9
South Dakota                                                                        9
Tennessee                                                   9
Texas                              9
Utah                               9
Vermont                            9
Virginia                           9
Washington                                                  9
West Virginia                      9
Wisconsin                                                                           9
Wyoming                            9
    TOTAL                         251                      12                       14
Note 1: Five States—Idaho, Maine, North Dakota, Vermont, and West Virginia—provided NCIC with a
portion of their warrant data. For example, warrants related to felony charges were provided, but
parole/probation violations were not.




Assessment of the SSI Fugitive Project (A-01-03-23070)                                          A-2
FUGITIVE DATA NOT OBTAINED BY SSA

Although 14 States did not provide fugitive data to SSA directly as of November 2002,
these States reported some of their fugitive data to NCIC. SSA was attempting to
obtain complete fugitive data from these States, as follows:

       10 States (Alabama, Connecticut, Hawaii, Indiana, Maryland,2 Michigan, Oregon,
        South Carolina, South Dakota, and Wisconsin) had agreements to provide
        fugitive data to SSA, but had not yet done so;

       3 States (Arizona, Montana, and Nevada) were in negotiations with SSA to
        establish reporting agreements; and

       1 State (Minnesota) was unable to provide data because State laws prohibit the
        release of information to non-law enforcement agencies.

Based on our analysis of SSI recipient data, we estimate that SSA had not received up
to 16 percent of nationwide fugitive data.3




2
 Although SSA did not receive State-wide fugitive data from Maryland, the Agency did receive data for
Baltimore, Maryland.
3
  Using the data in Table 7.B1 of the Annual Statistical Supplement-Social Security Bulletin-2002, we
determined that, as of December 2001, (a) 1.07 million individuals were receiving SSI payments in the
14 States from which SSA did not obtain fugitive data and (b) 6.69 million individuals were receiving SSI
payments nationwide. Therefore, 16 percent of SSI recipients lived in States which did not report fugitive
data. Our estimate that SSA did not obtain up to 16 percent of the fugitive data assumes the proportion
of fugitive warrants in these 14 States to all States is comparable to the proportion of SSI recipients
residing in these States to the total SSI population. This estimate also assumes the 14 States did not
provide any fugitive warrant data to NCIC.


Assessment of the SSI Fugitive Project (A-01-03-23070)                                                 A-3
                                                                                                       Appendix B
Flowchart of Fugitive Process1

               Fugitive warrant data
                received from Law
              Enforcement Agencies.




                                                         Can the
                   Is warrant                             Social                                       Send to OIG to
                   for felony          Yes               Security     Yes                        Yes   download into
                                                                                      Is the
                   or parole/                            number,                                        its Allegation
                                                                                    individual
                   probation                            name, and                                         and Case
                                                                                     on SSI?
                   violation?                             date of                                       Investigative
                                                         birth be                                          System.
                                                         verified?




                           No                                    No                         No




                                                                                                 No         Is the
                                                                                                           warrant
                                                          Stop
                                                                                                           active?




                                                                         Send fugitive felon
                                                                       address information to           Yes
                                 Send to field office
                                                                        law enforcement and
                                 for administrative
                                                                        allow 60 days for law
                                       action.
                                                                            enforcement to
                                                                             apprehend.




                                         To
                                        page
                                         B-2




1
 The flowchart illustrates the steps performed in the SSI fugitive suspension process. The flowchart
does not include steps performed in the Fugitive Felon Automation Program which was implemented in
April 2003. (See acronym list at beginning of report, if necessary.)


Assessment of the SSI Fugitive Project (A-01-03-23070)                                                                   B-1
            From
            page
             B-1




            Was the
           individual     Yes
                                    SSA suspends SSI
           receiving
                                       payments.
          SSI while a
            fugitive?




                                         Does an         Yes       Calculate
                                       overpayment
                                                                 Overpayment.
                                          result?




                                                No



                                      Inform OIG of              Inform OIG of
                   No
                                      administrative             administrative
                                       action taken.              action taken.




                                                               Send overpayment
                                                                 notice to SSI
                                                                  Recipient.




                                                                Make collection
                                            Stop               decision and begin
                                                                recovery efforts.




Assessment of the SSI Fugitive Project (A-01-03-23070)                              B-2
                                                                                 Appendix C
Administrative Finality
Under the Social Security Administration’s (SSA) regulations, determinations/decisions
made by the Agency that affect a Supplemental Security Income (SSI) recipient's
eligibility and/or payment amount are final when they are made.1 These regulations—
which outline a concept referred to as administrative finality—restrict when
determinations can be reopened and revised.

When SSA obtains new information about an SSI recipient, the Agency considers its
rules of administrative finality to determine the extent to which past periods may be
changed. Administrative finality allows a determination made under the SSI program to
be reopened and revised

         within 1 year of the initial determination for any reason;
         after 1 year—but within 2 years—upon a finding of "good cause;" or
         at any time, if the determination or decision was procured by fraud or "similar
          fault."

GOOD CAUSE
Good cause exists when

         new and material evidence is submitted that shows facts which could result in a
          conclusion different from that previously reached;
         there is a clerical error that resulted in an incorrect decision; or
         there is an error on the face of the evidence which resulted in an incorrect
          decision.

FRAUD AND SIMILAR FAULT
Fraud exists when any person knowingly, willfully and with intent to defraud makes or
causes a false statement to be made, or conceals a fact material to payment amount or
eligibility. Fraud investigations are conducted by SSA’s Office of the Inspector General,
Office of Investigations.2




1
    20 CFR §§ 416.1487-1489.
2
    SSA’s Program Operations Manual System, section SI 04070.020(A)(1).



Assessment of the SSI Fugitive Project (A-01-03-23070)                                      C-1
Similar fault is comparable to fraud, except that the intent to defraud cannot be
established. In contrast to fraud determinations, SSA personnel determine whether
similar fault exists. The criteria to establish similar fault are:3

         the changed event is material and will create a new or additional overpayment;
         a wide discrepancy exists between the new data and the data reported;4
         the SSI recipient knowingly concealed events or changes, or knowingly neglected
          to report events or changes that affect payments;
         the event can and will be verified; and
         the case does not involve fraud.

DILIGENT PURSUIT
Under the Agency’s application of its administrative finality rules, SSA may reopen and
revise a prior determination within the time periods described above. Also, reopening
may be possible after those time periods have expired, if the Agency began an
investigation into whether to revise the determination before the applicable time period
expires. The investigation is a process of gathering facts after a determination has
been reopened to determine if a revision of the determination is applicable.

If SSA diligently pursued the investigation to its conclusion, the Agency may revise the
determination—regardless of whether the revision is favorable or unfavorable to the
recipient. "Diligently pursued" means that in light of the facts and circumstances of a
particular case, the necessary action was undertaken and carried out as promptly as the
circumstances permitted. Diligent pursuit will be presumed to have been met if the
Agency concludes the investigation and (if necessary) revises the determination within
6 months from the date the investigation began.

Conversely, if SSA did not diligently pursue the investigation to its conclusion, the
Agency will only revise the determination if a revision is applicable and if it will be
favorable to the recipient.5




3
    SSA’s Program Operations Manual System, section SI 04070.025(A)(2).
4
 Per SSA’s Program Operations Manual System, section SI 04070.025(A)(2), the term "wide
discrepancy" cannot be defined in terms of monetary amount. It is a matter of judgment that depends on
how recently the reported event occurred, how long it went unreported or under-reported as well as the
amount and frequency.
5
    20 CFR § 416.1491.



Assessment of the SSI Fugitive Project (A-01-03-23070)                                             C-2
PRIOR OIG AUDIT
OIG issued its report, Performance Measure Review: Reliability of the Data Used to
Measure the Dollar Accuracy of Old-Age and Survivors Insurance Payment Outlays
(A-02-98-01001) in December 1999. Although the report is concerned with Old-Age
and Survivors Insurance benefits, it contains information relating to administrative
finality which SSA also applies to SSI payments.6

In the report, we noted that SSA's payment accuracy rate excludes payment errors
subject to administrative finality. We recommended that SSA "Include all error cases in
the calculation of the accuracy rate." In response, Agency officials stated

       SSA's regulations on administrative finality provide that determinations and
       decisions made by the Agency can be reopened and revised only for certain
       reasons and within certain periods of time. Since these determinations are the
       final decisions of the Commissioner, they are presumed to be correct and
       payments subject to administrative finality cannot be adjusted. No overpayment
       exists or should be computed for the period. If these cases were counted as an
       error there would be a presumption that SSA would take corrective action.

       We believe there is little utility to reporting situations that are not subject to
       correction and including these cases as a measure of accuracy would distort the
       validity of the data. OQA [Office of Quality Assurance and Performance
       Assessment] data show that inclusion of administrative finality would have
       virtually no impact on the underpayment dollar accuracy rate and minimal impact
       on the overpayment dollar accuracy rate. It should be noted that OQA does track
       these cases to establish trends and make recommendations for improvement.

In this prior report, we responded that "The purpose of the Stewardship Review is to
provide an assessment of the accuracy of payments in the Title ll program. Although
payments subject to administrative finality cannot be adjusted, they are erroneous
payments. These payments should be included in the calculation of the Title ll rate
since their inclusion would result in a better representation of the accuracy of Title ll
payments."




6
 Old-Age and Survivors Insurance benefits—administered by SSA—are authorized under Title ll of the
Social Security Act, §§ 201 et seq. of the Social Security Act (42 U.S.C. §§ 401 et seq.).


Assessment of the SSI Fugitive Project (A-01-03-23070)                                           C-3
                                                                      Appendix D
Sampling Methodology and Results
METHODOLOGY

We obtained an extract from the Office of the Inspector General, Office of
Investigations’ Allegation and Case Investigative System of 88,208 fugitives with Social
Security numbers that verified through the Social Security Administration’s (SSA)
Enumeration Verification System. These 88,208 fugitives were identified through
January 28, 2003.

From SSA, we obtained Supplemental Security Record (SSR) data for these
88,208 individuals to determine whether Supplemental Security Income (SSI) ineligibility
occurred because of the outstanding warrants. We separated the results into 2 groups,
sampling 150 cases from each (for a total sample size of 300 cases).

      Stratum A consisted of 51,456 individuals whose records did not reflect fugitive
       ineligibility (code N25), despite their warrants.
      Stratum B consisted of 36,752 individuals whose records reflected SSI ineligibility
       because of their outstanding warrants.

For the sampled records, we:

1. Determined the number of individuals who were overpaid SSI funds because of their
   outstanding warrants.

2. Determined whether the fugitive suspensions were processed accurately.

3. Calculated the average length of time that elapsed from (a) the dates the cases were
   sent to SSA field offices for action to the dates the field offices made determinations
   of ineligibility, and (b) the dates SSA determined retroactive fugitive ineligibility
   occurred to the dates SSA took action to notify the individuals of the overpayments.

4. Quantified the amount of overpayments charged to fugitives and determined the
   disposition of those overpayments.

      For overpayments that were unresolved, we calculated the age of these
       unresolved overpayments. We also determined whether recovery was
       available—but not pursued—from Old-Age, Survivors and Disability Insurance
       (OASDI) benefits or SSI payments.




Assessment of the SSI Fugitive Project (A-01-03-23070)                                D-1
      For overpayments that were in recovery arrangements (by withholding a portion
       of current SSI payments or OASDI benefits, or through repayment agreements
       with the debtors), we calculated the length of time required to fully recover the
       debts.

5. Calculated the length of time in which fugitive ineligibility—and any corresponding
   overpayments—was not recognized because SSA applied its administrative finality
   rules. We calculated the amount of overpayments that could not be recognized (and
   therefore were not subject to recovery) because SSA did not diligently take action
   based on the warrant information.

6. Determined the number of fugitives whose payments remained suspended after
   SSA took administrative action based on the warrant information (resulting in
   savings to the SSI program) and the length of time that suspension applied. We
   also estimated the amount of SSI payments that would have been paid had
   payments to these individuals not been withheld because of their outstanding
   warrants.

7. Determined the number of recipients found ineligible for SSI payments because of
   incarceration after fugitive suspension occurred—and the number of months they
   were ineligible.

8. Determined whether reinstatements were processed accurately and were supported
   by documentation from law enforcement certifying that the warrants were satisfied.

9. Determined the SSI eligibility status as of February 2003 (for example, the number
   of cases that resumed eligibility for SSI payments).

10. Summarized the offenses for fugitive felons.

11. Determined—for parole and probation violators—the original offenses for which they
    were on parole or probation (or the offenses that caused their parole or probation
    violations) by contacting law enforcement agencies.

RESULTS

The following tables reflect our sample results and projections.

                          Sample Results and Projections
                               Stratum A                 Stratum B              Total
Population size                    51,456                   36,752            88,208
Sample size                            150                    150                300




Assessment of the SSI Fugitive Project (A-01-03-23070)                                  D-2
RESULTS BASED ON SSA’S HANDLING OF THE FUGITIVE
WORKLOAD—FOR THE PERIOD AUGUST 1996 THROUGH
FEBRUARY 2003

Table D-1: Total SSI Overpayments Due
to Fugitive Ineligibility That SSA                              Attribute      Dollars
Identified and Assessed
Stratum A Sample Results                                              25       $120,041
Stratum B Sample Results                                             134       $695,391
Total Sample Results                                                 159       $815,432
Point Estimate                                                    41,408    $211,558,848
Projection lower limit                                            38,410    $183,791,188
Projection upper limit                                            44,405    $239,326,509
Note: All projections are at the 90-percent confidence level.



Table D-2: Savings Realized By SSA
Withholding Monthly SSI Payments to                             Attribute      Dollars
Fugitives Through February 2003
Stratum A Sample Results                                                2       $29,099
Stratum B Sample Results                                              79       $261,629
Total Sample Results                                                  81       $290,728
Point Estimate                                                    20,042     $74,084,709
Projection lower limit                                            17,450     $53,486,728
Projection upper limit                                            22,634     $94,682,691
Note: All projections are at the 90-percent confidence level.



Table D-3: SSI Overpayments To
Fugitives that SSA Had Recovered as of                          Attribute      Dollars
May 30, 2003
Stratum A Sample Results                                                2         $2,378
Stratum B Sample Results                                              50        $34,704
Total Sample Results                                                  52        $37,082
Point Estimate                                                    12,937      $9,318,780
Projection lower limit                                            10,475      $6,206,730
Projection upper limit                                            15,398     $12,430,830
Note: All projections are at the 90-percent confidence level.




Assessment of the SSI Fugitive Project (A-01-03-23070)                                     D-3
Table D-4: SSI Overpayments to
Fugitives with Active Recovery Efforts                          Attribute      Dollars
Underway by SSA as of May 30, 2003
Stratum A Sample Results                                              11        $60,965
Stratum B Sample Results                                              61       $315,894
Total Sample Results                                                  72       $376,859
Point Estimate                                                    18,719     $98,311,818
Projection lower limit                                            15,694     $75,079,470
Projection upper limit                                            21,744    $121,544,165
Note: All projections are at the 90-percent confidence level.


Table D-5: SSI Overpayments to
Fugitives that were Written Off as                              Attribute      Dollars
Uncollectible or Waived by SSA
Stratum A Sample Results                                                3       $15,913
Stratum B Sample Results                                              16        $60,542
Total Sample Results                                                  19        $76,455
Point Estimate                                                     4,949     $20,292,464
Projection lower limit                                             3,142      $8,672,422
Projection upper limit                                             6,757     $31,912,506
Note: All projections are at the 90-percent confidence level.



Table D-6: SSI Overpayments to
Fugitives that are Unresolved (SSA did not                      Attribute      Dollars
make recovery decisions as of May 30, 2003)
Stratum A Sample Results                                              14        $59,200
Stratum B Sample Results                                              60       $316,799
Total Sample Results                                                  74       $375,999
Point Estimate                                                    19,503     $97,927,976
Projection lower limit                                            16,354     $75,900,595
Projection upper limit                                            22,653    $119,955,357
Note: All projections are at the 90-percent confidence level.




Assessment of the SSI Fugitive Project (A-01-03-23070)                                     D-4
Table D-7: SSI Overpayments to
Fugitives Not Recorded to the SSR as of                         Attribute      Dollars
May 30, 2003
Stratum A Sample Results                                                7       $29,626
Stratum B Sample Results                                                1         $2,143
Total Sample Results                                                    8       $31,769
Point Estimate                                                     2,646     $10,687,878
Projection lower limit                                             1,132      $2,258,009
Projection upper limit                                             4,161     $19,117,747
Note: All projections are at the 90-percent confidence level.



Table D-8: SSI Savings Through
Withholding Payments to Prisoners                               Attribute      Dollars
(Fugitives Subsequently Incarcerated)
Stratum A Sample Results                                                2         $2,221
Stratum B Sample Results                                              24        $76,382
Total Sample Results                                                  26        $78,603
Point Estimate                                                     6,566     $19,476,637
Projection lower limit                                             4,588     $11,036,965
Projection upper limit                                             8,545     $27,916,310
Note: All projections are at the 90-percent confidence level.



Table D-9: SSI Payments SSA Did Not
Recognize as Fugitive Overpayments                              Attribute      Dollars
Because of Administrative Finality
Stratum A Sample Results                                              10       $104,228
Stratum B Sample Results                                              35       $367,792
Total Sample Results                                                  45       $472,020
Point Estimate                                                    12,006    $125,868,294
Projection lower limit                                             9,294     $88,039,161
Projection upper limit                                            14,717    $163,697,428
Note: All projections are at the 90-percent confidence level.




Assessment of the SSI Fugitive Project (A-01-03-23070)                                     D-5
 Table D-10: Fugitives Whose SSI Payments Had
                                                                             Attribute
 Resumed as of February 2003
 Stratum A Results                                                                  13
 Stratum B Results                                                                  48
 Total Sample Results                                                               61
 Point Estimate                                                                 16,220
 Projection lower limit                                                         13,202
 Projection upper limit                                                         19,238
Note: All projections are at the 90-percent confidence level.


Table D-11: Fugitives Whose SSI
Payments Had Resumed as of
February 2003—SSI Payments Not                                  Attribute     Dollars
Considered Overpayments Because of
Administrative Finality
Stratum A Sample Results                                                4      $23,775
Stratum B Sample Results                                              15      $170,775
Total Sample Results                                                  19      $194,550
Point Estimate                                                     5,047    $49,998,141
Projection lower limit                                             3,192    $26,442,720
Projection upper limit                                             6,903    $73,553,563
Note: All projections are at the 90-percent confidence level.


Table D-12: Fugitives Ineligible for SSI
Payments but Receiving OASDI Benefits                           Attribute     Dollars
as of February 2003
Stratum A Sample Results                                                9       $4,441
Stratum B Sample Results                                              20       $10,116
Total Sample Results                                                  29       $14,557
Point Estimate                                                     7,988     $4,001,893
Projection lower limit                                             5,637     $2,751,686
Projection upper limit                                            10,338     $5,252,099
Note: All projections are at the 90-percent confidence level.




Assessment of the SSI Fugitive Project (A-01-03-23070)                                    D-6
    Table D-13: Individuals Who Were Ineligible for SSI
                                                                                    Attribute
    Payments Because They Were Fugitives
    Stratum A Results                                                                           43
    Stratum B Results                                                                         149
    Total Sample Results                                                                      192
    Point Estimate                                                                        51,258
    Projection lower limit                                                                48,101
    Projection upper limit                                                                54,414
Note: All projections are at the 90-percent confidence level.



RESULTS BASED ON THE OFFICE OF THE INSPECTOR GENERAL’S
AUDIT—FOR THE PERIOD AUGUST 1996 THROUGH
FEBRUARY 2003.


    Table D-14: Overpayments to Fugitives
    Detected Based on Audit that are Now
                                                                Attribute              Dollars
    Barred from Recovery Efforts Because
    of Administrative Finality1
    Stratum A Sample Results                                             3               $15,417
    Stratum B Sample Results                                             9               $27,010
    Total Sample Results                                                12               $42,427
    Point Estimate                                                  3,234           $11,906,504
    Projection lower limit                                          1,712             $4,232,133
    Projection upper limit                                          4,756           $19,580,875
Note: All projections are at the 90-percent confidence level.




1
  These overpayments could have been assessed and recovery efforts initiated if SSA had worked the
original fugitive cases appropriately (prior to our audit). However, at the time of our audit, more than
24 months had elapsed since the fugitive status was discovered and—under SSA’s application of its rules
of administrative finality—the Agency will not assess the overpayment (unless fraud or similar fault is
involved).



Assessment of the SSI Fugitive Project (A-01-03-23070)                                               D-7
Table D-15: SSI Overpayments to
Fugitives Identified Based on Our Audit                         Attribute            Dollars

Stratum A Sample Results                                               11              $48,042
Stratum B Sample Results                                                9              $34,691
Total Sample Results                                                   20              $82,733
Point Estimate                                                      5,979         $24,980,067
Projection lower limit                                              3,826         $11,073,304
Projection upper limit                                              8,132         $38,886,830
Note: All projections are at the 90-percent confidence level.


    Table D-16: Overpayments SSA
    Charged to Fugitives Despite                                Attribute           Dollars
    Administrative Finality Rules2
    Stratum A Sample Results                                            0                    $0
    Stratum B Sample Results                                            7             $53,700
    Total Sample Results                                                7             $53,700
    Point Estimate                                                 1,715         $13,157,201
    Projection lower limit                                           673           $1,404,359
    Projection upper limit                                         2,758         $24,910,044
Note: All projections are at the 90-percent confidence level.



    Table D-17: Cases in Which SSA Incorrectly Deleted
                                                                                 Attribute
    Overpayments When Fugitives Satisfied Their Warrants
    Stratum A Results                                                                          5
    Stratum B Results                                                                          2
    Total Sample Results                                                                       7
    Point Estimate                                                                       2,205
    Projection lower limit                                                                 839
    Projection upper limit                                                               3,571
Note: All projections are at the 90-percent confidence level.




2
  These overpayments were assessed in error based on SSA’s administrative finality rules. Although
fraud or similar fault was not found, SSA assessed overpayments beyond the 24 months allowable under
the Agency’s application of its administrative finality rules.


Assessment of the SSI Fugitive Project (A-01-03-23070)                                             D-8
                                                                         Appendix E
Reasons Why Sample Cases Did Not Result in
Fugitive Ineligibility
For 108 cases, in our sample of 300, Supplemental Security Income (SSI) payments
were not stopped under the fugitive provisions in section 1611(e)(4) of the Social
Security Act. As of February 2003,

      32 individuals were neither fugitives wanted on felony charges nor
       parole/probation violators (based on the warrant confirmation process);
      25 individuals did not receive SSI payments while they were fugitives;
      16 individuals did not have their cases analyzed further because the warrants
       could not be verified;
      12 individuals were already ineligible for reasons unrelated their fugitive status;
      8 individuals were already ineligible for SSI payments due to incarceration;
      6 individuals were still undergoing the warrant verification process;
      6 individuals died; and
      3 individuals were victims of identity theft and were not the same individuals
       wanted by law enforcement.




Assessment of the SSI Fugitive Project (A-01-03-23070)
                                                                       Appendix F
Reasons Why SSA Did Not Identify Some Fugitive
Overpayments
During our audit, we discovered $125,160 in Supplemental Security Income (SSI)
overpayments to fugitives the Social Security Administration (SSA) did not detect. SSA
staff did not identify and assess overpayments for these cases for the following reasons:

   Issues involving the Modernized Supplemental Security Income Claims System
    (MSSICS).

       1. SSA staff answered the “warrant rescinded or withdrawn” question in
          MSSICS improperly; and, as a result, removed months of fugitive ineligibility
          and overpayments from the Supplemental Security Record (SSR).

           There seems to be confusion among SSA staff in interpreting the terms
           “rescinded,” “withdrawn,” and “satisfied.” A rescinded or withdrawn fugitive
           warrant should reflect that the warrant was issued in error (that is, for the
           wrong person or identify theft) and therefore no overpayment should be
           assessed. A satisfied warrant is one that was issued for a person who was a
           fugitive for a period of time. However, the warrant was cleared by the fugitive
           being arrested, plea bargaining, etc.—and an overpayment should be
           assessed for the time the individual was a fugitive. In some of our sample
           cases, the warrant was satisfied—not rescinded or withdrawn—but SSA staff
           answered “yes” to the rescinded or withdrawn question in MSSICS when the
           answer should have been “no.”

           SSA has long-range plans to re-word the fugitive question in MSSICS to
           prevent this problem from occurring in the future. However, we believe
           resources should be assigned to improve MSSICS sooner to prevent the
           removal of overpayments that were correctly assessed, so recovery can be
           pursued.

       2. SSA staff replaced old warrant data with new warrant data in MSSICS, and as
          a result, incorrectly removed fugitive ineligibility and overpayments for prior
          warrants.

       3. SSA staff worked one case outside of MSSICS—which required manual
          processing—and never posted the fugitive ineligibility information to the SSR.




Assessment of the SSI Fugitive Project (A-01-03-23070)                                 F-1
          4. SSA staff removed overpayments for a prior period of fugitive ineligibility
             during an SSI redetermination.1

         Staff did not follow through with the suspension of all (or a portion of) SSI
          payments once we notified the Agency the warrant was valid. For example, SSA
          staff:

          1. Responded to us on its feedback form that payments were suspended.
             However, our review of the case found that SSI payments were not stopped
             and overpayments were not assessed for the period of fugitive ineligibility.

          2. Posted fugitive ineligibility to the SSR and assessed overpayments for only a
             portion of the months permissible under the rules of administrative finality.

          3. Overlooked payments on a previous SSR that should have been assessed as
             overpayments.2




1
 A redetermination is a review of a recipient’s non-medical eligibility factors to ensure the individual is still
eligible for and receiving the correct SSI payment. SSA’s Program Operations Manual System, section
SI 02305.001, et seq.
2
    Once an SSR is terminated, a new record is created when an individual reapplies for payments.


Assessment of the SSI Fugitive Project (A-01-03-23070)                                                       F-2
                                                         Appendix G
Agency Comments




Assessment of the SSI Fugitive Project (A-01-03-23070)
                                          SOCIAL SECURITY

MEMORANDUM                                                                           31-24-1027


Date:      August 29, 2003                                                           Refer To: S1J-3

To:        James G. Huse, Jr.
           Inspector General

From:      Larry W. Dye /s/
           Chief of Staff

Subject:   Office of the Inspector General (OIG) Draft Report, “Assessment of the Supplemental Security
           Income Fugitive Felon Project (A-01-03-23070)—INFORMATION


           We appreciate the OIG's efforts in conducting this review. Our comments on the report content
           and recommendations are attached.

           Please let us know if we can be of further assistance. Staff questions can be referred to Trudy
           Williams at extension 50380.

           Attachment:
           SSA Response

           S1J-3:FColpo 8/28/03
           22003032DI




           Assessment of the SSI Fugitive Project (A-01-03-23070)                                            G-1
COMMENTS OF THE SOCIAL SECURITY ADMINISTRATION (SSA) ON THE
OFFICE OF THE INSPECTOR GENERAL (OIG) DRAFT REPORT,
“ASSESSMENT OF THE SUPPLEMENTAL SECURITY INCOME FUGITIVE
FELON PROJECT” (A-01-03-23070)


Thank you for the opportunity to review and comment on the subject draft report. Our response
to the specific recommendations is provided below.

The findings of the report are consistent with our assessment of the processing of fugitive felon
cases by field operations. Prior to this audit report, significant efforts were already underway to
improve our processing of this workload. Specifically:

•   To address all steps involved in processing fugitive felon cases, including such items as
    similar fault and administrative finality, SSA wrote a new subchapter in Program Operations
    Manual System (POMS) SI 00530. The new subchapter encompasses all Fugitive Felon
    Emergency Messages issued to the field over the past several years. The new POMS
    subchapter will be released to field office employees this month. To reinforce the new
    subchapter, individualized video training (IVT) sessions, "Refresher Fugitive Felon
    Processing" will take place on September 26, 2003.

•   SSA developed an automated fugitive felon process, which removed approximately 60-70
    percent of the fugitive felon workload from our field operations. The software is referred to
    as Fugitive Felon Automated Process (FFAP). The automation activity has been gradually
    expanded across the country since January of this year, with the final regions being included
    in the automation on August 4, 2003. The software eliminates significant manual handling
    and serves to ensure consistent processing for these cases. It has provided better control and
    timelier processing of fugitive felon cases.

•   SSA’s Office of Operations benefited from OIG centralizing the fugitive felon workload.
    OIG enters field office decisions into the Allegation Controls Investigation System in a more
    timely fashion. In addition, OIG streamlined the workflow process by establishing a
    Fugitive Felon e-mail response box so that field office employees can reply to the OIG via e-
    mail, reducing overall case processing time.

•   In June 2002, SSA made changes to the Modernized Supplemental Security Income Claims
    System (MSSICS) AWRF (the “Help Screen”) that clarifies for staff the definition of a
    warrant that is either rescinded or withdrawn.

•   Finally, SSA is working to automate Fugitive Felon overpayment notices.




Assessment of the SSI Fugitive Project (A-01-03-23070)                                          G-2
Recommendation 1

SSA should encourage staff to resolve overpayments to fugitives when they are recorded on the
Supplemental Security Record.

SSA Comment

We agree. The resolution of all overpayment issues is an important function for SSA's field
offices and is of high priority. Overpayments are not unique just to the Fugitive Felon
population receiving Supplemental Security Income (SSI) benefits.
POMS SI 02201.005A.2.b states, "Prompt initiation of the overpayment resolution process will
maximize the amount of debt recovered."

To the degree that workload priorities allow, SSA staff makes overpayment and suspension
action decisions simultaneous. As stated above, the FFAP reduced the field office fugitive felon
workload. The Agency is combining the FFAP with the automation of the Fugitive Felon
overpayment notices in the future. We expect the overall fugitive felon processing time to
improve with the combination of the automated process, along with the centralization of the
workload.

Recommendation 2

SSA should provide guidance, training and oversight of administrative finality decisions to
ensure the rules are applied uniformly to all fugitives.

SSA Comment

We agree. We will be issuing a rewrite of POMS SI00503, "Fugitive Felons and Parole and
Probation Violators" by the end of August 2003 which will include information on
administrative finality. In addition, refresher training is scheduled for a nationwide IVT
broadcast on September 26, 2003, which will include a reminder about the administrative finality
rules.

Recommendation 3

SSA should revise MSSICS to clarify the distinction between a satisfied warrant and a
rescinded/withdrawn warrant.

SSA Comment

We agree with the intent of this recommendation and will address misunderstandings regarding
the distinction between a satisfied warrant and a rescinded/withdrawn warrant through additional
training and the issuance of a reminder item.




Assessment of the SSI Fugitive Project (A-01-03-23070)                                        G-3
We note that Modernized Systems Operation Manual 109-1, Felony Warrant, describes what
information must be completed on the MSSICS screens. The AWRF screen on MSSICS has
drop down help screens. AWRF provides explanations for all entries in detail, including the
distinction between satisfied warrants and rescinded warrants.

The Regional Fugitive Felon Coordinators advised that they receive very few questions about
warrant terminology since the "Help" screen was revised. However, to make sure that our
technicians fully understand the distinction between a rescinded/withdrawn warrant and a
satisfied warrant, we will cover this item in our upcoming Fugitive Felon Refresher IVT training.
We will continue to monitor the staff for proper completion of the warrant status and assess
whether we need to expend resources to change to the terminology on the AWRF screen.

Recommendation 4

SSA should re-evaluate fugitive cases that appear to have been improperly processed in
MSSICS.

SSA Comment

We agree. We appreciate your detection of those cases that were possibly processed improperly.
We will re-examine them for appropriate action and/or correction.

Recommendation 5

SSA should continue to work with State law enforcement agencies to obtain comprehensive
fugitive data to process through SSA’s systems on a routine basis.

SSA Comment

We agree. SSA continues to follow-up with the States that are not reporting or are only partially
reporting warrant data to SSA. However, the States continue to cite the lack of funds and/or
resources available within the States to prepare the files for SSA.


[SSA provided additional technical comments which we incorporated into this report as
appropriate.]




Assessment of the SSI Fugitive Project (A-01-03-23070)                                        G-4
                                                                        Appendix H
OIG Contacts and Staff Acknowledgments
OIG Contacts

   Rona Rustigian, Director, Northern Audit Division (617) 565-1819

   Judith Oliveira, Deputy Director (617) 565-1765

Staff Acknowledgments
In addition to those named above:

   Jeffrey Brown, Auditor

   Kevin Joyce, IT Specialist

   Pat Kennedy, Audit Manager

   Joseph LoVecchio, Auditor

   Frank Salamone, Auditor

   Melinda Tabicas, Auditor

   Charles Zaepfel, Computer Specialist


For additional copies of this report, please visit our web site at http://www.ssa.gov/oig or
contact the Office of the Inspector General’s Public Affairs Specialist at (410) 966-1375.
Refer to Common Identification Number A-01-03-23070.




Assessment of the SSI Fugitive Project (A-01-03-23070)
                           DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Subcommittee on Human Resources
Chairman and Ranking Minority Member, Committee on Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Government Reform and
Oversight
Chairman and Ranking Minority Member, Committee on Governmental Affairs
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security and Family
Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
                   Overview of the Office of the Inspector General


                                           Office of Audit
The Office of Audit (OA) conducts comprehensive financial and performance audits of the
Social Security Administration’s (SSA) programs and makes recommendations to ensure that
program objectives are achieved effectively and efficiently. Financial audits, required by the
Chief Financial Officers' Act of 1990, assess whether SSA’s financial statements fairly present
the Agency’s financial position, results of operations and cash flow. Performance audits review
the economy, efficiency and effectiveness of SSA’s programs. OA also conducts short-term
management and program evaluations focused on issues of concern to SSA, Congress and the
general public. Evaluations often focus on identifying and recommending ways to prevent and
minimize program fraud and inefficiency, rather than detecting problems after they occur.

                                 Office of Executive Operations
The Office of Executive Operations (OEO) supports the Office of the Inspector General (OIG)
by providing information resource management; systems security; and the coordination of
budget, procurement, telecommunications, facilities and equipment, and human resources. In
addition, this office is the focal point for the OIG’s strategic planning function and the
development and implementation of performance measures required by the Government
Performance and Results Act. OEO is also responsible for performing internal reviews to ensure
that OIG offices nationwide hold themselves to the same rigorous standards that we expect from
SSA, as well as conducting investigations of OIG employees, when necessary. Finally, OEO
administers OIG’s public affairs, media, and interagency activities, coordinates responses to
Congressional requests for information, and also communicates OIG’s planned and current
activities and their results to the Commissioner and Congress.

                                      Office of Investigations
The Office of Investigations (OI) conducts and coordinates investigative activity related to fraud,
waste, abuse, and mismanagement of SSA programs and operations. This includes wrongdoing
by applicants, beneficiaries, contractors, physicians, interpreters, representative payees, third
parties, and by SSA employees in the performance of their duties. OI also conducts joint
investigations with other Federal, State, and local law enforcement agencies.

                                Counsel to the Inspector General
The Counsel to the Inspector General provides legal advice and counsel to the Inspector General
on various matters, including: 1) statutes, regulations, legislation, and policy directives
governing the administration of SSA’s programs; 2) investigative procedures and techniques;
and 3) legal implications and conclusions to be drawn from audit and investigative material
produced by the OIG. The Counsel’s office also administers the civil monetary penalty program.
